Audit Report




OIG-11-037
Audit of the Financial Management Service’s Fiscal Years 2010
and 2009 Schedules of Non-Entity Assets, Non-Entity Costs and
Custodial Revenue
November 18, 2010




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               November 18, 2010


            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           FINANCIAL MANAGEMENT SERVICE

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Financial Management Service’s Fiscal Years
                                    2010 and 2009 Schedules of Non-Entity Assets, Non-Entity
                                    Costs and Custodial Revenue

            I am pleased to transmit the attached audited Financial Management Service’s (FMS)
            Fiscal Years 2010 and 2009 Schedules of Non-Entity Assets, Non-Entity Costs and
            Custodial Revenue (Schedules). Under a contract monitored by the Office of
            Inspector General, KPMG LLP, an independent certified public accounting firm,
            performed an audit of the Schedules. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards;
            applicable provisions of Office of Management and Budget (OMB) Bulletin
            No. 07-04, Audit Requirements for Federal Financial Statements, as amended; and
            the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                        and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit of the Schedules, KPMG LLP found:

                    •   the Schedules present fairly, in all material respects, the Non-Entity Assets
                        as of September 30, 2010 and 2009, and Non-Entity Costs and Custodial
                        Revenue for the years then ended, in conformity with U.S. generally
                        accepted accounting principles,
Page 2


        •   certain deficiencies in internal control over financial reporting that were
            considered collectively to be a significant deficiency 1 (described below),
            and
        •   no instances of reportable noncompliance with laws and regulations tested.

KPMG LLP concluded that FMS’ information technology general controls do not
provide reasonable assurance that: (1) an adequate security management program is
in place; (2) access to computer resources (data, equipment, and facilities) is
reasonable and restricted to authorized individuals; (3) changes to information
system resources are authorized and systems are configured and operated securely
and as intended; and (4) incompatible duties are effectively segregated. Collectively
the conditions observed and reported on could compromise FMS’ ability to ensure
security over sensitive financial data related to Non-Entity Assets, Non-Entity Costs
and Custodial Revenue and the reliability of key systems.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit performed in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the Schedules or conclusions about the effectiveness of internal control
or compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated November 12, 2010 and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:     Richard L. Gregg
        Acting Fiscal Assistant Secretary




1
  A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged with
governance.
U.S. DEPARTMENT OF THE TREASURY
FINANCIAL MANAGEMENT SERVICE

   Independent Auditors’ Reports and
    Schedules of Non-Entity Assets,
 Non-Entity Costs and Custodial Revenue

      September 30, 2010 and 2009
                               U.S. DEPARTMENT OF THE TREASURY
                                FINANCIAL MANAGEMENT SERVICE



                                          Table of Contents



                                                                                      Page

Independent Auditors’ Report                                                            1

Independent Auditors’ Report on Internal Control                                        2

Independent Auditors’ Report on Compliance and Other Matters                            6

Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue                  7

Notes to the Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue     8

Attachment – Management’s Response                                                     26
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036-3389




                                          Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury
Commissioner of the Financial Management Service:

We have audited the accompanying Schedules of Non-Entity Assets of the U.S. Department of the
Treasury’s Financial Management Service (FMS) as of September 30, 2010 and 2009, and the related Non-
Entity Costs and Custodial Revenue (collectively, Treasury Managed Accounts (TMA), hereinafter
referred to as the Schedules) for the years then ended . These Schedules are the responsibility of FMS
management. Our responsibility is to express an opinion on these Schedules based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the Schedules are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
FMS’ internal control over financial reporting related to TMA. Accordingly, we express no such opinion.
An audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedules, assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall Schedule presentation. We believe that our audits provide a reasonable basis
for our opinion.

In our opinion, the Schedules referred to above present fairly, in all material respects, the Non-Entity
Assets as of September 30, 2010 and 2009, and Non-Entity Costs and Custodial Revenue for the years then
ended in conformity with U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated November 12,
2010, on our consideration of FMS’ internal control over financial reporting related to TMA and our tests
of its compliance with certain provisions of laws and regulations related to TMA. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 12, 2010




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury
Commissioner of the Financial Management Service:

We have audited the Schedules of Non-Entity Assets of the U.S. Department of the Treasury’s Financial
Management Service (FMS) as of September 30, 2010 and 2009, and the related Non-Entity Costs and
Custodial Revenue (collectively, Treasury Managed Accounts (TMA), hereinafter referred to as the
Schedules) for the years then ended, and have issued our report thereon dated November 12, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for establishing and maintaining effective internal control related
to TMA. In planning and performing our fiscal year 2010 audit, we considered FMS’ internal control over
financial reporting related to TMA by obtaining an understanding of the design effectiveness of FMS’
internal control related to TMA, determining whether internal controls related to TMA had been placed in
operation, assessing control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the Schedules, but not for the purpose of
expressing an opinion on the effectiveness of FMS’ internal control over financial reporting related to
TMA. Accordingly, we do not express an opinion on the effectiveness of FMS’ internal control over
financial reporting related to TMA. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting related to TMA was for the limited purpose
described in the third paragraph of this report and was not designed to identify all deficiencies in internal
control over financial reporting related to TMA that might be deficiencies, significant deficiencies, or
material weaknesses. In our fiscal year 2010 audit, we did not identify any deficiencies in internal control
over financial reporting related to TMA that we consider to be material weaknesses, as defined above.
However, we identified certain deficiencies in internal control over financial reporting related to TMA
described in Exhibit I that we consider collectively to be a significant deficiency in internal control over
financial reporting related to TMA. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.

                                                                       2
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
FMS’ response to the finding identified in our audit is presented in a separate Attachment to this report.
We did not audit FMS’ response and, accordingly, we express no opinion on it.

Exhibit II presents the status of the prior year significant deficiency.

This report is intended solely for the information and use of FMS management, the U.S. Department of the
Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




November 12, 2010




                                                        3
                                                                                                    EXHIBIT I

                                      U.S. Department of the Treasury

                                       Financial Management Service

               Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                  Significant Deficiency in Internal Control Over Financial Reporting

Information Technology Controls Over Systems Managed by FMS and Third Parties (Repeat
Condition)

FMS relies on an extensive array of information technology (IT) systems to manage the Non-Entity Assets,
Non-Entity Costs and Custodial Revenue (collectively, Treasury Managed Accounts (TMA)). Internal
controls over these operations are essential to ensure the integrity, confidentiality, and reliability of critical
data while reducing the risk of errors, fraud, and other illegal acts.

Our review of IT controls covered general and selected application controls over key systems related to
TMA. General controls are the structure, policies, and procedures that apply to an entity’s overall
computer systems. They include security management, access controls, configuration management,
segregation of duties, and contingency planning. Business process application controls involve input,
processing, and output controls related to specific IT applications.

In fiscal year 2010, we noted that FMS made progress in several areas in its efforts to address this finding.
Despite these improvements, our tests revealed that the necessary policies and procedures to detect and
correct control and functionality weaknesses have not been consistently documented, implemented, or
enforced. FMS’ IT general controls do not provide reasonable assurance that:

    1. An adequate security management program is in place;

    2. Access to computer resources (data, equipment, and facilities) is reasonable and restricted to
       authorized individuals;

    3. Changes to information system resources are authorized and systems are configured and operated
       securely and as intended; and

    4. Incompatible duties are effectively segregated.

Collectively the conditions we observed and reported on could compromise FMS’ ability to ensure security
over sensitive financial data related to TMA and the reliability of key systems.

Because of the sensitivity of the information, we issued a separate sensitive but unclassified report to the
Commissioner of FMS detailing the conditions identified and our recommendations for corrective action.

Management's Response:
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our finding and its comments were responsive to our
recommendations.




                                                        4
                                                                                     EXHIBIT II
                                 U.S. Department of the Treasury

                                 Financial Management Service

            Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                           Status of Prior Year Significant Deficiency



                       Finding                             Action Complete       Action in
                                                                                 Progress


Information Technology Controls Over Systems Managed by                      Partially resolved
FMS and Third Parties                                                        and repeated as a
                                                                                 significant
                                                                             deficiency for FY
                                                                                    2010




                                               5
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury
Commissioner of the Financial Management Service:

We have audited the Schedules of Non-Entity Assets of the U.S. Department of the Treasury’s Financial
Management Service (FMS) as of September 30, 2010 and 2009, and the related Non-Entity Costs and
Custodial Revenue (collectively, Treasury Managed Accounts (TMA)) (hereinafter referred to as the
Schedules) for the years then ended, and have issued our report thereon dated November 12, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain
reasonable assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for complying with laws and regulations applicable to the
amounts reflected in the Schedules. As part of obtaining reasonable assurance about whether the
Schedules are free of material misstatement, we performed tests of compliance with certain provisions of
laws and regulations related to TMA, noncompliance with which could have a direct and material effect
on the determination of the amounts reflected in the Schedules, and certain provisions of other applicable
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws and
regulations applicable to FMS. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph disclosed no instances of
noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of FMS management, the U.S. Department of
the Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




November 12, 2010




                                                                   6
                                   KPMG LLP is a Delaware limited liability partnership,
                                   the U.S. member firm of KPMG International Cooperative
                                   (“KPMG International”), a Swiss entity.
                                U.S. DEPARTMENT OF TREASURY
                              FINANCIAL MANAGEMENT SERVICE
             Schedules of Non-Entity Assets, Non-Entity Costs, and Custodial Revenue
                                  September 30, 2010 and 2009
                                             (In Thousands)

                                                                      2010             2009
Non-Entity Assets (Note 6)
  Intra-governmental:
     Fund Balance with Treasury (Note 2)                          $     397,473    $     368,167
     Accounts Receivable, Net (Note 3)                                  350,211          285,315
     Other                                                                  407                -
  Total Intra-governmental                                              748,091          653,482

  With the Public:
     Receivable on Deposit of Earnings, Federal Reserve System         1,910,493        1,253,984
     Accounts Receivable, Net (Note 3)                                     1,737              573
  Total With the Public                                                1,912,230        1,254,557
Total Non-Entity Assets                                           $    2,660,321   $    1,908,039

Commitments and Contingencies (Note 7)

Non-Entity Costs (Note 4)
  Credit Reform: Interest Paid on Uninvested Funds                $   10,399,449   $   12,632,930
  Judgments                                                            1,118,786        2,304,834
  Resolution Funding Corporation                                       2,275,962        2,120,124
  Public Broadcasting Fund, Corporation for Public Broadcasting          506,000          461,233
  Legal Services Corporation                                             418,112          388,010
  District of Columbia                                                   186,225          211,616
  Presidential Election Campaign Fund                                          -              465
  Moneys Erroneously Received and Covered                                 25,381           71,299
  Other                                                                   30,851           40,072
Total Non-Entity Costs                                            $   14,960,766   $   18,230,583

Custodial Revenue (Note 5)
  Deposit of Earnings, Federal Reserve System                     $   75,844,675   $   34,318,322
  Interest Received from Tax and Loan Depositaries                           410           39,527
  Recoveries from Federal Agencies for Settlement of Claims
     from Contract Disputes                                              140,093           91,840
  General Fund Proprietary Receipts, Not Otherwise Classified             93,799          101,134
  Fines, Penalties, and Forfeitures, Not Otherwise Classified                310            3,348
  Interest Payments from States, Cash Management Improvement               8,431           36,324
  Other                                                                   11,551           22,711
  Total Cash Collections                                              76,099,269       34,613,206
  Accrual Adjustment                                                     721,431        (307,378)
Total Custodial Revenue                                           $   76,820,700   $   34,305,828




                    The accompanying notes are an integral part of these Schedules.
                                                 7
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

        Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                   September 30, 2010 and 2009

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  A. Reporting Entity

     The Financial Management Service (FMS) is a bureau of the U.S. Department of the Treasury
     (Treasury). FMS’s mission is to improve the quality of government financial management. FMS’s
     commitment and responsibility is to help its customers achieve success. FMS does this by linking
     program and financial management objectives and by providing financial services, information,
     advice, and assistance to its customers. FMS serves taxpayers, Treasury, Federal program agencies,
     and government policy makers.

     Non-Entity accounts are those Treasury Account Symbols (TAS) that FMS holds but are not available
     to FMS in its operations. For example, FMS accounts for certain cash that the Federal Government
     collects and holds on behalf of the U. S. Government or other entities. These Schedules include the
     activity of Non-Entity TAS managed by FMS. However, the Schedules of Non-Entity Assets, Non-
     Entity Costs and Custodial Revenue (the Schedules) do not include Non-Entity Operating Cash of the
     Federal Government (commonly known as Government-wide Cash).

     Some Non-Entity accounts receive appropriations for specific Federal programs. Some of the
     appropriations are permanent, indefinite appropriations. They are not subject to budgetary ceilings
     established by Congress. Both types of appropriations are used for payments to Federal program
     agencies and others.

     Some Non-Entity accounts receive cash collections. These types of accounts are miscellaneous receipt
     accounts. Examples of collections include interest payments, contributions, and collections of fines
     and penalties.

     The financial activities of FMS are affected by, and are dependent upon, those of Treasury and the
     Federal Government as a whole. Thus, the accompanying schedules do not reflect the results of
     financial decisions and activities applicable to FMS as if it was a stand alone entity.

  B. Basis of Preparation

     The Schedules have been prepared from the accounting records maintained by FMS and are meant to
     report Non-Entity Assets, Non-Entity Costs and Custodial Revenue of FMS in accordance with U.S.
     generally accepted accounting principles. Such principles require the use of the accrual method of
     accounting to record transactions. Under the accrual method, revenues are recognized when earned
     and costs are recognized when a cost is incurred, without regard to receipt or payment of cash. These
     Schedules were prepared following accrual accounting.

                This information is an integral part of the accompanying Schedules.
                                                  8
                         U.S. DEPARTMENT OF THE TREASURY
                          FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                  September 30, 2010 and 2009

   The standards used in the preparation of these Schedules are issued by the Federal Accounting
   Standards Advisory Board (FASAB), as the body authorized to establish U.S. generally accepted
   accounting principles for Federal government entities.

   Balances reflected on these Schedules may differ from those on financial reports prepared by FMS
   pursuant to certain OMB directives that are primarily used to monitor and control FMS’ use of
   budgetary resources.

C. Use of Estimates in Preparing the Schedules

   The preparation of these Schedules, in conformity with U.S. generally accepted accounting principles,
   requires management to make estimates and assumptions. These estimates affect the reported amounts
   of non-entity assets at the date of the Schedules and the amounts of custodial revenues and non-entity
   costs during the reporting period for the Schedules. For example, some estimates are based on prior
   year disbursements. Actual results may differ from these estimates.

D. Fund Balance with Treasury

   The Fund Balance with Treasury (FBWT) is an asset account that reflects the available budget
   spending authority of Federal agencies. Collections and disbursements by agencies will,
   correspondingly, increase or decrease the balance in the account.

E. Accounts Receivable

   Accounts receivable is comprised of intra-governmental accounts (i.e., amounts due from other
   Federal agencies) and accounts with the public. Accounts with the public include amounts due from
   the Federal Reserve System. FMS records an allowance for uncollectible accounts based on an
   analysis of individual accounts, a group based methodology, and a percentage of total receivables and
   historical collections at September 30.




              This information is an integral part of the accompanying Schedules.
                                                9
                          U.S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                  September 30, 2010 and 2009

F. Receivable on Deposit of Earnings, Federal Reserve System

   Federal Reserve Banks are required by the Board of Governors of the Federal Reserve System to
   transfer to the U.S. Treasury excess earnings, after providing for the cost of operations, payment of
   dividends, and reservation of an amount necessary to equate surplus with capital paid in. In the event
   of losses, or a substantial increase in capital, a Federal Reserve Bank will suspend its payments to the
   U.S. Treasury until such losses or increases in capital are recovered through subsequent earnings.
   Weekly payments to the U.S. Treasury may vary significantly. The Receivable on Deposit of Earnings,
   Federal Reserve System, represents the earnings due to Treasury as of September 30, but not collected
   by Treasury until after the end of the month.

G. Custodial Revenue

   Custodial revenue is initially recorded on a cash basis when amounts are deposited into receipt
   accounts. However, an adjustment is reflected on the Schedules at September 30 to accrue for
   collections in a fiscal year relating to prior year’s Non-Entity Accounts Receivable, and to account for
   other changes in the Non-Entity Accounts Receivable not resulting in a collection of cash in the
   current period (i.e., new reimbursements and changes in the allowance for uncollectible accounts).

H. Fiduciary Activities

   Fiduciary activities are the collection or receipt, and the management, protection, accounting,
   investment, and disposition by the U.S. Government of cash or other assets in which non-Federal
   individuals or entities have an ownership interest that the U.S. Government must uphold. Fiduciary
   cash and other assets are not assets of the U.S. Government. Statement of Federal Financial
   Accounting Standards (SFFAS) No. 31, Accounting for Fiduciary Activities, which is effective for
   periods beginning after September 30, 2008, prescribes that fiduciary type activities no longer be
   reported in proprietary financial statements. Therefore, these activities are not reported on the
   Schedules. They are reported in Note 6 to the Schedules.




               This information is an integral part of the accompanying Schedules.
                                                10
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                     September 30, 2010 and 2009

NOTE 2. FUND BALANCE WITH TREASURY (FBWT)

  FBWT is funded through various sources depending on the specific legislative authority and purpose, and
  may be used only for specific purposes. Such amounts may be in escrow or other special accounts. These
  accounts are primarily funded through appropriations, collections, tax receipts, gifts to the Government,
  and settlements from foreign countries.

  Obligated balances are funds against which budgetary obligations have been incurred, but disbursements
  have not been made. The Unobligated Available balance is the amount of funds available to FMS against
  which no claims have been recorded. The Unobligated Unavailable balance is the amount of unobligated
  funds remaining from appropriations that have expired, appropriations that have not been apportioned,
  authority that is not available pursuant to public law, and the amount of funds in deposit funds, clearing
  accounts and receipt accounts. FBWT as of September 30, 2010 and 2009 consisted of the following
  (amounts in thousands):

                                                  2010
                                                   Unobligated          Unobligated
Account Type                      Obligated         Available           Unavailable            Total
Appropriated Funds              $    177,660        $    192,900         $          -        $   370,560
Revolving Funds                           585               1,801                   -               2,386
Trust Funds                                52                  29                   -                  81
Other Fund Types                            -                   -              24,446             24,446
Total                           $    178,297        $    194,730         $     24,446        $   397,473



                                                  2009
                                                   Unobligated          Unobligated
Account Type                      Obligated         Available           Unavailable            Total
Appropriated Funds              $    111,916        $    155,188         $          2        $   267,106
Revolving Funds                           199               4,173                   -               4,372
Other Fund Types                            -                   -              96,689             96,689
Total                           $    112,115        $    159,361           $ 96,691          $   368,167



                  This information is an integral part of the accompanying Schedules.
                                                   11
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                     September 30, 2010 and 2009

  The fund balance, unobligated available supports the budgetary resources available except for $310
  thousand, which is invested. The fund balance, unobligated unavailable for appropriated funds supports
  the budgetary resources not available. The fund balance, unobligated unavailable for other fund types
  includes only deposit funds and suspense accounts that do not have a budgetary impact.


NOTE 3. ACCOUNTS RECEIVABLE, NET

  A. Intra-governmental Accounts Receivable, Net

      Intra-governmental accounts receivable principally includes amounts for which Federal agencies are
      required to reimburse the Treasury’s Judgment Fund for settlements paid or accrued on their behalf for
      contract disputes pursuant to the Contract Disputes Act of 1978 (CDA) and the Notification and
      Federal Employee Anti-discrimination and Retailiation Act of 2002 (No FEAR). While the CDA and
      No FEAR require Federal agencies reimburse the Judgment Fund for payments, CDA and No FEAR
      do not authorize FMS to initiate collection action against those agencies. Accordingly, FMS has
      historically had difficulty in collecting amounts owed under the CDA. An allowance for uncollectible
      accounts has been established to recognize losses on receivables that may not be collected under this
      program. As a result of the annual review of the uncollectible estimate for CDA, the allowance amount
      of $900 million did not change from 2009 to 2010. During the individual account analysis, it was
      determined that four of the non-reimbursing agencies made up 80% of the intra-governmental
      accounts receivable balance. An allowance for uncollectible accounts has not been established for No
      FEAR Act receivables because an agency will be deemed non-compliant if it fails to reimburse or
      make timely arrangements for reimbursement; therefore, amounts owed are being collected. The
      activity in the allowance account each year is reflected in the “Accrual Adjustment” line in the
      custodial revenue section of the Schedules.

      Intra-governmental accounts receivable as of September 30, 2010 and 2009 consist of the following
      (amounts in thousands):
                                                                            2010             2009
      Claims for CDA and Fire Fighting                                   $ 1,249,057 $ 1,183,751
      Claims for No FEAR                                                       1,154             1,564
      Less: Allowance for Uncollectable Accounts – Claims for CDA           (900,000)        (900,000)
      Accounts Receivable, Net                                           $ 350,211 $           285,315



                 This information is an integral part of the accompanying Schedules.
                                                  12
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                     September 30, 2010 and 2009

  B. Accounts Receivable with the Public, Net

      Accounts Receivable with the Public, exclusive of amounts due from the Federal Reserve System, as
      of September 30, 2010 and 2009, consist of the following (amounts in thousands):

                                                                           2010             2009
      U.S. Treasury Check Forgery Insurance Fund Receivables          $     2,348       $     1,089
      General Fund Proprietary Receipts                                       127               127
      Gross Accounts Receivable                                             2,475            1,216
      Less: Allowance for Uncollectable Accounts – U.S.
      Treasury Check Forgery Insurance Fund                                   (738)           (643)
      Accounts Receivable, Net                                        $      1,737      $      573

      The U.S. Treasury Check Forgery Insurance Fund was established to expedite payments on claims and
      provide a dependable source of funds to meet the Federal Government’s responsibility for the payment
      of settlement checks issued to replace checks paid over forged endorsements. The receivable
      represents the amount due from banks that cashed the forged checks. The allowance for uncollectible
      accounts for Check Forgery is calculated by comparing losses to accounts receivable with the public.
      The percentage represents a portion of the current outstanding accounts receivable that are deemed
      uncollectible.

NOTE 4. NON-ENTITY COSTS

  Non-Entity Costs represent payments made on behalf of the Federal Government through various Treasury
  Managed Accounts (TMA) described below. In addition, Non-Entity Costs also include accruals for
  which FMS has made a commitment to make a payment for claims existing as of September 30, 2010 and
  2009.

  Credit Reform: Interest Paid on Uninvested Funds - Direct loan and loan guarantee financing accounts
  receive various payments, repayments and fees, and make payments on defaults. When cash receipts
  exceed outlays or when an agency does not disburse all of its borrowings, these balances are held in the
  Treasury and earn interest. The interest earned on these balances is collected by each federal agency from
  FMS.



                  This information is an integral part of the accompanying Schedules.
                                                   13
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

        Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2010 and 2009

Judgments - FMS processes payments from the Judgment Fund for certain judicially and administratively
ordered monetary awards against the United States, as well as amounts owed under compromise
agreements negotiated by the United States Department of Justice in settlement of claims arising under
actual or imminent litigation.

Resolution Funding Corporation - The Resolution Funding Corporation (REFCORP) account is
maintained pursuant to the Federal Home Loan Bank Act. FMS provides payments to REFCORP to cover
the interest expenses of REFCORP.

Public Broadcasting Fund, Corporation for Public Broadcasting - This account is used to make annual
payments to the Corporation for Public Broadcasting pursuant to the enacted Public Law. The payment is
used to assist and facilitate the full development of public telecommunications in which programs of high
quality, diversity, creativity, excellence, and innovations will be made available to public
telecommunications.

Legal Services Corporation - This account is used to pay the Legal Services Corporation through letter of
credit drawdowns. The Legal Services Corporation distributes appropriated funds to local nonprofit
organizations that provide free civil legal assistance, according to locally determined priorities, to people
living in poverty. Congress chartered the corporation as a private, non-profit entity outside of the Federal
Government.

District of Columbia - Payments to the District of Columbia cover certain operations of the District of
Columbia. It includes payments for a program of management reform, for the administration and operation
of correctional facilities, and for construction and repair of the District’s infrastructure.

Presidential Election Campaign Fund – The Presidential Election Campaign Fund (PECF) is maintained
in accordance with Internal Revenue Code. The purpose of the PECF is to defray the qualified campaign
expenses which were incurred by eligible presidential candidates or nominating conventions. The PECF is
a special fund financed through the collections of the $3 check off option selected by taxpayers. These
amounts are collected by the Internal Revenue Service and deposited into the PECF.




                This information is an integral part of the accompanying Schedules.
                                                 14
                          U.S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

        Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2010 and 2009


The PECF is broken down into the following accounts: Presidential Primary Matching Payment Account;
Presidential Nominating Convention Account; and Presidential and Vice Presidential Nominee Account
(General Election). Each account is funded in accordance with budget estimates provided by the Federal
Election Commission (FEC). Payments from the PECF are made to qualified recipients upon certification
from the FEC.

Moneys Erroneously Received and Covered – This account is used for expenditures made for collections
or other receipts erroneously deposited into Treasury. Collections represent receipts that were not properly
chargeable to any other appropriation.

Other – Other Non-Entity costs include the following payments: Payments to the States, Payments to
Agencies for Interest on Uninvested Funds, Payment to the Institute of American Indian and Alaskan
Native Culture and Arts Development, Payments from the U.S. Treasury Check Forgery Insurance Fund,
Payments to Individuals under Private and Public Relief Laws, and Payments from Biomass Energy
Development.




                This information is an integral part of the accompanying Schedules.
                                                 15
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                     September 30, 2010 and 2009

NOTE 5. COLLECTIONS OF CUSTODIAL REVENUE

  FMS collects Custodial Revenue that is not related to its mission and distributes the full amount collected
  to the Treasury General Fund. For the years ended September 30, 2010 and 2009, cash collections were as
  follows (amounts in thousands):

                                                                                 2010
                                                              October to       January to
                                                               December       September
                                                                 2009            2010             Total
   Deposit of Earnings, Federal Reserve System                $19,262,909     $56,581,766      $75,844,675
   Interest Received from Tax and Loan Depositaries                    17              393              410
   Recoveries from Federal Agencies for Settlement of
     Claims from Contract Disputes                                  8,939         131,154          140,093
   General Fund Proprietary Receipts                               21,134          72,665           93,799
   Fines, Penalties, and Forfeitures                                   47             263              310
   Interest Payments from States                                        -           8,431            8,431
   Other                                                            1,732           9,819           11,551
   Total                                                      $19,294,778     $56,804,491      $76,099,269

                                                                                  2009
                                                              October to       January to
                                                              December         September
                                                                 2008             2009            Total
   Deposit of Earnings, Federal Reserve System                $ 9,766,602      $24,551,720      $34,318,322
   Interest Received from Tax and Loan Depositaries                29,299           10,228           39,527
   Recoveries from Federal Agencies for Settlement of
     Claims from Contract Disputes                                  8,110           83,730           91,840
   General Fund Proprietary Receipts                                5,435           95,699          101,134
   Fines, Penalties, and Forfeitures                                1,008            2,340            3,348
   Interest Payments from States                                        -           36,324           36,324
   Other                                                            5,064           17,647           22,711
   Total                                                      $ 9,815,518      $24,797,688      $34,613,206




                  This information is an integral part of the accompanying Schedules.
                                                   16
                             U.S. DEPARTMENT OF THE TREASURY
                              FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                       September 30, 2010 and 2009

NOTE 6. SCHEDULE OF FIDUCIARY ACTIVITY

  FMS accounts for certain cash that the Federal Government collects and holds on behalf of other entities.
  FMS collects funds from foreign governments to make payments to US nationals. Also, FMS maintains an
  account – Unclaimed Moneys – whose sole purpose, as originally established, is to hold moneys in trust
  for rightful owners (as received by Government agencies from sources outside the Government). While
  these activities are not reported on the Schedules, they are required to be reported in the notes to the
  Schedules.

  The following are the funds identified by FMS as fiduciary activities along with activity for the years
  ended September 30, 2010 and September 30, 2009.

  Proceeds and Payment of Certain Unpaid Checks
  The authority for this deposit fund is cited in 31 U.S.C. 3328. Specifically, the Secretary of the Treasury
  shall not be required to pay a Treasury check issued on or after the effective date of 31 U.S.C. 3328 unless
  it is negotiated to a financial institution within 12 months after the date on which the check was issued; and
  the Secretary shall not be required to pay a Treasury check issued before the effective date of 31 U.S.C.
  3328 unless it is negotiated to a financial institution within 12 months after such effective date. If a check
  issued by a disbursing official and drawn on a designated depositary is not paid by the last day of the fiscal
  year after the fiscal year in which the check was issued, the amount of the check is withdrawn from the
  account with the depositary; and deposited in the Treasury. A claim for the proceeds of an unpaid check
  under this code may be paid from a consolidated account by this fund symbol.

  This deposit fund holds non-federal funds not paid to the public due to failure of cashing or depositing a
  check.

  Proceeds of Withheld Foreign Checks
  The authority for this deposit fund is cited in 31 U.S.C. 3329, 3330. Specifically, the Secretary of the
  Treasury shall prohibit a check or warrant drawn on public money from being sent to a foreign country
  from the United States or from a territory or possession of the United States when the Secretary decides
  that postal, transportation, or banking facilities generally, or local conditions in the foreign country, do not
  reasonably ensure that the payee will receive the check or warrant and will be able to negotiate it for full
  value. The account is maintained to receive and hold the proceeds of these checks.

  This deposit fund holds non-federal funds not paid to the public due to failure of cashing or depositing a
  check.

  War Claims Fund (Foreign Claims Settlement Commission)
  The War Claims Act of 1948, as amended, was designed to compensate individual American citizens and
  corporations for certain losses incurred by them in specific foreign countries during World War II. In order
  to compensate them, funds were to be made available by the proceeds from the sale of enemy assets that
  were seized under the Trading with the Enemy Act rather than through the appropriation process by the
  Congress.


                  This information is an integral part of the accompanying Schedules.
                                                   17
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

        Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2010 and 2009

Debt Management Operations
The authority for this deposit fund is cited in 31 U.S.C. 1321. The purpose of this deposit fund is to
account for non-federal collections and the disbursements of fees due to private collection agencies and
individuals.

Albanian Claims Fund
The Albanian Claims program is authorized under the Foreign Claims Settlement Act of 1949 (22 U.S.C.
1627). The statue authorizes special funds to be set up, authorizes investment of funds, and gives
directions on how claims are to be paid. On March 10, 1995, the United States and Albania signed an
agreement providing for the settlement of the United States national’s property claims against Albania in
exchange for a lump-sum payment by Albania to the United States of $2 million. The $2 million was
received by the United States on October 29, 1996, and was invested.

Payment of Unclaimed Moneys
The authority for this deposit fund is cited in 31 U.S.C. 1322. The balance of this account should represent
only moneys which, when claimed, are unequivocally refundable. The sole purpose of the account, as
originally established, was to hold such moneys in trust for rightful owners (as received by Government
agencies from sources outside the Government). Accordingly, items cleared from agency uninvested trust,
revolving and deposit fund accounts for transfer to account 20X6133 must meet all four of the following
criteria: (1) amount is $25.00 or more, (2) a refund, upon claim, would be absolutely justified, (3) there is
no doubt as to legal ownership of the funds, and (4) a named individual, business, or other entity can be
identified with the item.

Libyan Claims Settlement Fund – Department of State, December 2008 and January 2009 Referral
On August 14, 2008, the United States and Libya signed a comprehensive claims settlement agreement in
Tripoli. The agreement is designed to provide rapid recovery of fair compensation for American nationals
with terrorism-related claim against Libya. The U.S. Congress has supported this initiative by passing the
Libya Claims Resolution Act (Public Law 110-301), which was signed into law by the President on
August 4, 2008. On March 23, 2009, the Foreign Claims Settlement Commission, an independent quasi-
judicial federal agency within the Department of Justice, published notice in the Federal Register
announcing the commencement of the first portion of its Libya Claims Program, pursuant to the
International Claims Settlement Act of 1949 and the December Referral Letter for claims for physical
injury. The deadline for filing claims under the December Referral Letter was July 23, 2009. The
Commission received approximately 50 claims which it is currently processing for adjudication.




                This information is an integral part of the accompanying Schedules.
                                                 18
                          U.S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

        Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2010 and 2009

On July 7, 2009, the Commission published notice in the Federal Register announcing the commencement
of the second portion of its Libya Claims Program, pursuant to the International Claims Settlement Act of
1949 and the January Referral Letter for six additional categories of claims: (1) claims by U.S. nationals
who were held hostage or unlawfully detained in violation of international law; (2) claims of U.S. nationals
for mental pain and anguish who are living close relatives of a decedent whose death formed the basis of a
death claim compensated by the Department of State; (3) claims of U.S. nationals for compensation for
wrongful death, in addition to amounts already recovered under the Claims Settlement Agreement, where
there is a special circumstances in that the claimants obtained a prior U.S. court judgment in the Pending
Litigation awarding damages for wrongful death; (4) claims of U.S. nationals for compensation for
physical injury in addition to amount already recovered under the Commission process initiated by the
December 11, 2008 referral; (5) claims of U.S. nationals for wrongful death or physical injury resulting
from one of the terrorist incidents covered; and (6) commercial claims of U.S. nationals. The deadline for
filing claims under the January Referral Letter was July 7, 2010.

Kennedy Center Revenue Bond Sinking Fund
The authority for this deposit fund is cited in 98 Stat 1876. The Kennedy Center Revenue Bond Sinking
Fund is a fund set up to retire obligations of the Board of Trustees of the John F. Kennedy Center for the
Performing Arts. Annual deposits are received from the Kennedy Center by the first day of January and
deposited into the fund. Interest is received and reinvested on the Fund every May and November. The
fund matures in the year 2016.

Iranian Claims Settlement Fund
This claims fund is authorized under 22 U.S.C. 1627. The U.S. made an agreement with the Government
of Iran providing for the lump-sum settlement of claims of United States nationals against Iran of under
$250,000 per claim which had been pending against Iran at the Iran-U.S. Claims Tribunal at the Hague,
Netherlands. The claimants had filed these claims through the Department of State following the signing of
the Algiers Accords by the United States and Iran on January 19, 1981. In addition to the unresolved small
claims, the agreement included other claims. Under the terms of the agreement, Iran assented to the
transfer of $105 million to the United States. The United States and Iran submitted the Settlement
Agreement to the Tribunal for approval. It was approved and became effective on June 22, 1990.

German Democratic Republic Settlement Fund
Title VI of the Act [Public Law 94-542, approved October 18, 1976, 90 Stat. 2509 (22 U.S.C. 1644)]
authorized the Commission to receive and determine claims against the German Democratic Republic for
losses which arose from the nationalization, expropriation, or other taking by that government of property
interests of nationals of the United States. When the program was authorized, no funds were available for
payment of the awards issued by the Commission. The program was completed on May 16, 1981. The
Department of State subsequently conducted negotiations with the German Democratic Republic--and,
after unification, with the Federal Republic of Germany--to obtain a claims settlement to provide funds for
the payment of awards. Those negotiations culminated in the signing of a settlement agreement on May 13,
1992.

                This information is an integral part of the accompanying Schedules.
                                                 19
                          U.S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

        Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                   September 30, 2010 and 2009


Vietnam Claims Fund
On February 25, 1986, the Foreign Claims Settlement Commission completed a program to determine the
validity and amount of claims of United States’ nationals against the Socialist Republic of Vietnam arising
from the nationalization or other taking of property on or after April 29, 1975, when the Government of
the Republic of Vietnam (South Vietnam) was overthrown. The program had been authorized by Public
Law 96-606, approved December 28, 1980 [94 Stat. 3534 (22 U.S.C. 1645)], which added Title VII to the
Act. The Commission made determinations on 534 claims, granting awards to 192 claimants in the total
principal amount of $99,471,983.51.

Small Escrow Amounts
The authority for this deposit fund is cited in 31 U.S.C. 3513. FMS uses this account to record the
following transactions: unresolved ACH (Automated Clearing House) issues and unidentified remittances.
Therefore, this deposit fund temporarily holds non-federal funds due to the public.

Small Differences Account for Deposit and Check Adjustments
The authority for this deposit fund is cited in 31 U.S.C. 3513. This account was established in 1959 as a
deposit suspense account for adjusting small differences, all small differences $1.00 or less for deposits
and checks only. This account is used to adjust small differences relating to receipt and payment
transactions processed by depositaries, agencies, and disbursing offices.

Suspense, Net Interest Payments to States
The authority for this deposit fund is cited in 104 Stat 1061. The purpose of the account as stated in the
Cash Management Improvement Act of 1990 is to ensure greater efficiency, effectiveness, and equity in
the exchange of funds between the Federal government and the States. The funds in this deposit fund are
non-federal funds owed to the states.

Accounts Payable, Check Issue Underdrafts
The authority for this deposit fund is cited in 31 U.S.C. 3513. This account is used by FMS for refunds
and adjustments due the public.

Esther Cattell Schmitt Gift Fund
This trust fund was established pursuant to Public Law 87-467 which authorized acceptance of a
conditional gift to the United States from the late Esther Cattell Schmitt in the amount of $414,010. The
Will/Public Law stipulates that certain conditions be met before the United States can acquire title to the
gift. FMS is responsible for administering the trust fund account and investing the principal amount and
disbursing the earnings to the beneficiaries as well as depositing any earnings in excess of the amount due
to the beneficiaries into a miscellaneous receipt account.




                This information is an integral part of the accompanying Schedules.
                                                 20
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2010 and 2009


                                   Schedule of Fiduciary Activity
                              For the Year Ended September 30, 2010
                                      (Amounts in Thousands)

                                                                              All Other          Total
                                                          Unclaimed           Fiduciary        Fiduciary
                                                           Moneys              Funds            Funds

Fiduciary Net Assets, Beginning of Year                   $    389,653    $      180,537   $      570,190

Increases
Contributions to Fiduciary Net Assets                          102,929           406,446          509,375
Investment Earnings                                                  -               744              744
Total Increases                                                102,929           407,190          510,119

Decreases
Withdrawals or Distributions of Fiduciary Net Assets          (72,937)         (192,506)        (265,443)
Total Decreases                                               (72,937)         (192,506)        (265,443)

Net Increase in Fiduciary Net Assets                            29,992           214,684          244,676

Fiduciary Net Assets, End of Year                         $    419,645     $     395,221   $      814,866




                  This information is an integral part of the accompanying Schedules.
                                                   21
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2010 and 2009


                                   Schedule of Fiduciary Activity
                              For the Year Ended September 30, 2009
                                      (Amounts in Thousands)

                                                                              All Other             Total
                                                          Unclaimed           Fiduciary           Fiduciary
                                                           Moneys              Funds               Funds

Fiduciary Net Assets, Beginning of Year                   $    365,818    $         31,330    $      397,148

Increases
Contributions to Fiduciary Net Assets                           28,436             282,429           310,865
Investment Earnings                                                  -                 775               775
Total Increases                                                 28,436             283,204           311,640

Decreases
Withdrawals or Distributions of Fiduciary Net Assets           (4,601)            (133,980)        (138,581)
Distribution of Income                                               -                 (17)             (17)
Total Decreases                                                (4,601)            (133,997)        (138,598)

Net Increase in Fiduciary Net Assets                            23,835             149,207           173,042

Fiduciary Net Assets, End of Year                         $    389,653        $    180,537    $      570,190




                  This information is an integral part of the accompanying Schedules.
                                                   22
                              U.S. DEPARTMENT OF THE TREASURY
                               FINANCIAL MANAGEMENT SERVICE

           Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                     September 30, 2010 and 2009


                                         Fiduciary Net Assets
                                       As of September 30, 2010
                                       (Amounts in Thousands)

                                              Unclaimed         All Other Fiduciary      Total Fiduciary
                                               Moneys                 Funds                  Funds
Fiduciary Assets
Fund Balance With Treasury                     $    419,645               $    29,248        $    448,893
Investments                                               -                   365,649             365,649
Other Assets                                              -                       474                 474
Total Fiduciary Assets                              419,645                   395,371             815,016

Liabilities
Less: Fiduciary Liabilities                                 -                   (150)               (150)

Total Fiduciary Net Assets                     $    419,645           $       395,221       $     814,866


                                         Fiduciary Net Assets
                                       As of September 30, 2009
                                       (Amounts in Thousands)

                                              Unclaimed         All Other Fiduciary      Total Fiduciary
                                               Moneys                 Funds                  Funds
Fiduciary Assets
Fund Balance With Treasury                     $    389,653          $        165,571       $     555,224
Investments                                               -                    14,703              14,703
Other Assets                                              -                       431                 431
Total Fiduciary Assets                              389,653                   180,705             570,358

Liabilities
Less: Fiduciary Liabilities                                 -                   (168)               (168)

Total Fiduciary Net Assets                     $    389,653          $        180,537        $    570,190

                   This information is an integral part of the accompanying Schedules.
                                                    23
                             U.S. DEPARTMENT OF THE TREASURY
                              FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                       September 30, 2010 and 2009




NOTE 7. COMMITMENTS AND CONTINGENCIES

  A contingency is an existing condition, situation or set of circumstances involving uncertainty as to
  possible payment to FMS. The uncertainty will ultimately be resolved when one or more future events
  occur or fail to occur. For pending, threatened or unasserted litigation, a liability/cost is recognized when a
  past transaction or event has occurred, a future outflow or other sacrifice of resources is probable, and the
  related future outflow or sacrifice of resources can be reasonably estimated.

  There are numerous legal actions pending against the United States in Federal courts in which claims have
  been asserted that may be based on action taken by FMS. Management intends to vigorously contest all
  such claims. Management believes, based on information provided by legal counsel, that losses, if any, for
  the majority of these cases would not have a material impact on the Schedules. There are other cases that
  could result in significant payouts; however, legal counsel is unable to determine the probability of an
  unfavorable outcome, or determine an estimate or range of potential loss, for these matters, if any. No loss
  accrual has been made for these cases outstanding at September 30, 2010 or 2009.

  In addition, FMS manages several accounts that may be used for the payment of claims against other
  Federal Agencies. Such payments are reflected in the following Non-Entity cost accounts reflected in the
  Schedules: Judgments and Moneys Erroneously Received and Covered. At September 30, 2010 and 2009,
  such claims are in various stages of settlement.




                  This information is an integral part of the accompanying Schedules.
                                                   24
     Attachment




25
     Attachment




26
